TN

C@OCKLE

2311 Douglas Street Le ga 1 Briefs E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No.

LUCILLE S. TAYLOR, an individual,
Petitioner,

Vv.

DENNIS M. BARNES, in his official capacity as
President of the State Bar of Michigan Board of
Commissioners; ROBERT J. BUCHANAN, in his
official capacity as President-Elect of the State Bar
of Michigan Board of Commissioners; DANA M. WARNEZ,
in her official capacity as Vice President of the State Bar
of Michigan Board of Commissioners; JAMES W. HEATH,
in his official capacity as Secretary of the State Bar of
Michigan Board of Commissioners, DANIEL DIETRICH
QUICK, in his official capacity as Treasurer of the
State Bar of Michigan Board of Commissioners,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly swom, upon my oath state that I did, on the Ist day of September, 2021, send out
from Omaha, NE 2 package(s) containing 3 copies of the PETITION FOR WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
DERK A. WILCOX
Counsel of Record
PATRICK J. WRIGHT
MACKINAC CENTER LEGAL FOUNDATION
140 W. Main Street
Midland, MI 48640
(989) 631-0900
wilcox@mackinac.org
Counsel for Petitioner

Subscribed and sworn to before me this 1st day of September, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

    

Loo Ondiaw-h. Chile

Affiant

 

A. NOTARY-State of Mebraska
RENEE J. GOSS
My Comm. Exp. September &, 2023

 

Notary Public
John J. Bursch

Bursch Law PLLC

9339 Cherry Valley Ave. SE, #78
Caledonia, Michigan 49316
(616) 450-4235
jbursch@burschlaw.com

Andrea J. Bernard

Charles R. Quigg

Warner Norcross + Judd LLP

150 Ottawa Avenue NW, Suite 1500
Grand Rapids, MI 49503

(616) 752-2000

abernard@wnj.com

Attorneys for Defendants-Appellees-Respondents
